       SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection

     Regional Information
     Management Center
          Frankfurt
  Report Number IT-I-05-02, March 2005




                             IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will
be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative
penalties.



        SENSITIVE BUT UNCLASSIFIED
                           TABLE OF CONTENTS



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Support Provided to Posts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
      Operations Officer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      Radio Branch Staffing Shortage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
      Technician Qualifications and Attrition . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      Information Management Specialist Rover Selection . . . . . . . . . . . . . . . . 10
      Employee Evaluation Report Input from Temporary Duty Posts . . . . . . . 10
      Information Management Training Center . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Systems Administrator Access for Digital Technicians . . . . . . . . . . . . . . . 13
      Temporary Duty for Telephone Technicians . . . . . . . . . . . . . . . . . . . . . . . . 13
FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX A - OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . 17
                    SENSITIVE BUT UNCLASSIFIED




                                INTRODUCTION

    Embassies and consulates worldwide are increasingly turning to Regional
Information Management Centers (RIMC) for telecommunications, network,
systems engineering, installation, and maintenance support. The Regional Informa-
tion Management Center in Frankfurt, Germany (RIMC Frankfurt) also provides
temporary duty (TDY) support for information management operations to posts
through its rover program, consultations on systems configuration and operation
through its operations officer, and technical training through its information
management training center (IMTC). Additionally, RIMC Frankfurt supports the
Department of State’s (Department) antiterrorism initiatives by conducting com-
munications systems installations in the major theaters of the war on terrorism, as
well as general telecommunications support and operational assistance in areas of
political instability. This report focuses on the results of the Office of Inspector
General’s (OIG) review of RIMC Frankfurt’s maintenance and support services.
The objectives, scope, and methodology for the review are discussed in Appendix
A.




OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




2 .     OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                            RESULTS IN BRIEF

    The Bureau of Information Resource Management (IRM) provides telecommu-
nications, network, systems engineering, installation, and maintenance support to
U.S. embassies and consulates worldwide through four regional telecommunications
support centers. RIMC Frankfurt, one of the four regional centers, provides high
quality support for the 117 posts within its region, which includes parts of four
geographic bureaus. Management is effective and makes the best use of limited
resources.

    There are areas for improvement, however, and steps need to be taken to
ensure that current levels of customer service do not decline. Specifically, RIMC
Frankfurt needs to increase its staff of operations officers and radio technicians.
RIMC Frankfurt could improve preventive maintenance by increasing the staff of
operations officers, who provide operational support and advice for information
and communications systems. Equally necessary is fully staffing the technician
positions in the radio branch. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2) RIMC Frankfurt should participate in assessing the qualifications of
information management specialist (IMS) rovers. Steps should be taken to ensure
the continued success of the IMTC, including establishing memoranda of
agreement with the Foreign Service Institute (FSI) and streamlining the student
registration process. Additional measures will be necessary to ensure the adequacy
of facilities at Creekbed, the projected consolidated facility for all U.S. Government
activities in Frankfurt. Finally, RIMC Frankfurt technicians should be given the
appropriate tools, including administrator-level access to systems for which they are
responsible.




OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   3 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED




4 .     OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                                  BACKGROUND

    RIMC Frankfurt is one of four regional telecommunications support centers.
Through these support centers, IRM provides telecommunications, network,
systems engineering, installation, and maintenance support to U.S. embassies and
consulates worldwide. RIMC Frankfurt maintains satellite branch offices with
forward-deployed staff in Berlin, London, Paris, USNATO Brussels, Geneva,
Moscow, Vienna, and Cairo.

     RIMC Frankfurt provides technical and operational support for IRM programs
at 117 embassies and consulates throughout Europe, Near East Asia, South Asia,
and West Africa. This support impacts all post operations by providing guidance
for IRM program standardization, digital services, telephone services, radio system
services, and telecommunications maintenance and logistical support. RIMC
Frankfurt hosts the IMS rover program that provides operational support to 90
posts. Additionally, RIMC Frankfurt operates the IMTC, a training center with two
fully equipped classrooms, which provides in-depth training to information
management professionals from over 200 posts.

    In addition to providing information technology support, RIMC Frankfurt
supports the Department’s antiterrorism initiatives by providing installation and
operational assistance for communications equipment in key locations of the war
on terrorism. RIMC Frankfurt sent three technicians to Kabul for a total of 105
days to provide installation assistance, and one digital technician stayed on as an
operator for an additional 46 days. Three rovers and 17 area volunteers have
rotated in and out of Kabul for a total of 733 days during the past two fiscal years.

     Efforts in support of Operation Iraqi Freedom have included a three-month
TDY in Baghdad by RIMC Frankfurt’s Deputy Director in fiscal year 2004 to
provide logistical and communications advisory support, as well as a twelve-day
visit by the Director to discuss, with a joint Department of State and Department
of Defense team, the communications implications of the handover of governance
on June 28, 2004. Four technicians spent 73 days setting up digital and radio
communications support. Additional support to Embassy Baghdad has included a
45-day TDY by a telephone technician and completion of an OpenNet optimiza-
tion project by a RIMC contractor and digital technician in December 2004. RIMC



OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      Frankfurt will be providing radio support for a 90-day period beginning in January
      2005, and plans are underway to provide additional TDY support to allow for rest
      and recreation of currently assigned information management staff in Embassy
      Baghdad, beginning April 2005. Demands on RIMC Frankfurt for telecommunica-
      tions installation and operational assistance will only increase in the near future as
      RIMC Frankfurt expects to be involved in the installation of the information
      technology infrastructure of embassy facilities in Tripoli. RIMC Frankfurt is
      already supplying two rovers who must work 12-hour shifts, seven days a week, to
      assist in providing communications support for the temporary facilities in Tripoli.

          RIMC Frankfurt’s organization consists of an Executive Office that includes
      the Director, Deputy Director, and Operations Officer positions, as well as Digital,
      Telephone, Radio, Training, and Rover branches. The Operations Officer heads the
      Rover branch, while branch chiefs head the remaining branches. The Frankfurt
      office is staffed by 41 direct-hire Americans, three personal service contract (PSC)
      Americans, four American contractors, three Foreign Service nationals, and one
      third-country national. The satellite branch offices are staffed by 18 direct-hire
      Americans, one PSC, and three contractors.




6 .                   OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




     FINDINGS AND RECOMMENDATIONS



    RIMC Frankfurt provides comprehensive information management support for
a region spanning three continents. There are areas for improvement, however, and
needs that must be addressed to ensure that current support levels do not decline.
The increased need for resources to support global antiterrorism initiatives, of
which RIMC Frankfurt is a significant participant, exacerbates resource shortages.



SUPPORT PROVIDED TO POSTS
    As part of the survey for this inspection, OIG solicited the 117 posts supported
by RIMC Frankfurt for feedback on the level of support received. Fifty-four
embassies and consulates responded. More than 96 percent of these responses
indicated that the level of support provided has been good, with almost 80 percent
rating RIMC Frankfurt outstanding. However, many qualified their answer by
noting that they were aware of resource constraints and were therefore under-
standing of times when there were no technicians available to send. Many posts
indicated they would like to have more regular visits from RIMC technicians to
perform preventive maintenance.

    Several survey responses suggested that RIMC Frankfurt clarify the means by
which it can be contacted for support. The Executive Office has already begun
drafting an information e-mail that will be sent to all serviced posts on a semi-
annual basis with updated contact information as well as links to useful informa-
tion. This information will also be updated on RIMC Frankfurt’s intranet site,
which one survey response described as ‘invaluable.’ RIMC Frankfurt personnel
indicated that they have received positive feedback on the intranet site from posts
worldwide. The intranet site and other electronic means of communication such as
e-mail can serve to ameliorate resource issues that often preclude sending
technicians to posts. During periods when the intranet site has been offline for
maintenance, the widespread reliance on it as a resource has been apparent in the
numerous inquiries from information management personnel worldwide asking
when it would be active again.


OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



      OPERATIONS OFFICER
          RIMC Frankfurt has one operations officer who covers 117 posts in parts of
      four geographic bureaus. This position provides advice and support for all aspects
      of information management operations, conducts informal inspections, assists in
      strategic and contingency planning, and maintains systems configurations. Addi-
      tionally, the operations officer conducts communications security audits and is the
      branch chief of the rover program. The chief benefit that these periodic visits
      provide is the inspection and consultation to improve management and operational
      controls of automated information systems. Increasing the number of operations
      officers to provide more adequate coverage of RIMC Frankfurt’s serviced posts
      would significantly improve the operational and security posture of information
      and communications systems within the Bureaus of European and Eurasian
      Affairs, Near Eastern Affairs, South Asian Affairs, and African Affairs.


         Recommendation 1: The Bureau of Information Resource Management, in
         coordination with the Bureau of European and Eurasian Affairs, the Bureau
         of Near Eastern Affairs, the Bureau of South Asian Affairs, the Bureau of
         African Affairs, and the Bureau of Human Resources, should request addi-
         tional operations officer positions to support the constituent posts of the
         Regional Information Management Center Frankfurt. (Action: IRM, in
         coordination with EUR, NEA, SA, AF, and DGHR)




      RADIO BRANCH STAFFING SHORTAGE
          RIMC Frankfurt’s radio branch is understaffed, with only seven direct-hire
      Americans to cover 117 posts. The inception of the overseas wireless program in
      1999 tripled the workload in the radio branch without a corresponding increase in
      staff. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
      (b) (2)(b) (2)

8 .                  OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Recommendation 2: The Bureau of Information Resource Management in
    coordination with the Bureau of European and Eurasian Affairs, the Bureau
    of Near Eastern Affairs, the Bureau of South Asian Affairs, the Bureau of
    African Affairs, and the Bureau of Human Resources, should request addi-
    tional radio technician positions to support the constituent posts of the
    Regional Information Management Center Frankfurt. (Action: IRM, in coor-
    dination with EUR, NEA, SA, AF, and DGHR)




TECHNICIAN QUALIFICATIONS AND ATTRITION
    RIMC Frankfurt currently has a number of new-hire technicians. While these
technicians have completed the Department’s training program, many lack skills
that can only be learned through experience. IRM previously assigned new techni-
cians for one tour to the Office of Local Area Network/Wide Area Network
Services to gain this experience, but many technicians now are immediately
assigned to a RIMC. As these technicians have not learned how the Department
works, they must accompany another technician to obtain the on-the-job training.
Further, many have not developed the interpersonal skills vital to providing good
customer service.

   (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
(b) (2)(b) (2)(b) (2)




OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       INFORMATION MANAGEMENT SPECIALIST ROVER SELECTION
            RIMC Frankfurt management is concerned that they have no input in the
       selection of personnel who become rovers. The geographic bureaus that are
       supported by the program make these decisions. However, the staff that fill these
       positions must be knowledgeable and able to adapt to tough circumstances, as they
       are often sent to posts that are having difficulties. Equally important is the fact
       that the performance of staff in rover positions reflects heavily on RIMC Frankfurt
       and will shape posts’ perception of the quality of service available through RIMC.
       The Director wants to ensure that he can fill these positions with staff he can trust
       will perform.


          Recommendation 3: The Bureau of Information Resource Management
          should ensure that the Regional Information Management Center Frankfurt
          has input in the staffing of the information management specialist rover
          program. (Action: IRM)




       EMPLOYEE EVALUATION REPORT INPUT FROM TEMPORARY
       DUTY POSTS
           Posts at which RIMC technicians have served TDY have not provided suffi-
       cient input regarding the technicians’ performance to RIMC Frankfurt. To ensure
       accountability for technicians’ performance at posts, and to ensure the overall
       quality of their complement of staff, RIMC Frankfurt includes a request for
       employee evaluation report input in all TDY assignment cables. However, OIG
       received survey comments from several posts claiming that they had no means to
       contribute to the evaluations of certain under-performing technicians. Similarly,
       some technicians noted that not all of their work was accurately reflected in their
       employee evaluation report due to insufficient input from the posts visited.
       Because most TDYs are shorter in duration than the minimum number of days
       required to complete a formal evaluation, most posts simply reply with a few
       cursory words that are of little value in crafting an evaluation. RIMC Frankfurt
       needs to pursue more detailed and consistent assessments of their technicians’
       activities while on TDY.




10 .                   OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Recommendation 4: The Bureau of European and Eurasian Affairs, in
    coordination with the Bureaus of Near Eastern Affairs, South Asian Affairs,
    and African Affairs should ensure that posts receiving temporary duty site
    visits from Regional Information Management Center Frankfurt technicians
    submit the required input on technician performance as requested in the tem-
    porary duty assignment cable. (Action: EUR, in coordination with NEA, SA,
    AF, and RIMC Frankfurt)




INFORMATION MANAGEMENT TRAINING CENTER
    The IMTC is a valuable asset to RIMC and Consulate General Frankfurt. It
provides technical training opportunities to a wide range of students, some of
whom have few other avenues for such training. Located at the Regional Service
Center (RSC) in Frankfurt, the IMTC trains more students on a yearly basis than
does the RSC. The IMTC plans their training schedule a year in advance, in coordi-
nation with FSI’s School of Applied Information Technology, to complement the
schedule of courses offered at FSI in Arlington and Warrenton, and the RIMC in Ft.
Lauderdale. This helps ensure the same class is not offered simultaneously at more
than one campus, and gives students worldwide access to a greater variety of
available offering dates in a particular course.

    However, the lack of a clearly defined niche for the IMTC within RIMC’s
organizational structure and the Department as a whole, ambiguous funding
sources, and uncertainty of the adequacy of projected training facilities at
Creekbed may threaten the future effectiveness of the IMTC. The IMTC has no
budget under RIMC and receives no funding through RIMC other than incidental
operating expenses; in fact, IMTC has no formal budget at all. Although funding
for materials is provided by FSI, there is no memorandum of agreement between
RIMC Frankfurt and FSI regarding how the resources are to be used.


    Recommendation 5: The Bureau of Information Resource Management, in
    coordination with the Foreign Service Institute and the Regional Information
    Management Center Frankfurt, should develop a memorandum of agreement
    detailing the types and number of training classes that will be offered by the
    Regional Information Management Center Frankfurt using funding provided
    by the Foreign Service Institute. (Action: IRM, in coordination with FSI,
    RIMC Frankfurt)



OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



           While the IMTC offers some FSI-sponsored courses (i.e., those identified with
       an FSI-assigned code), the IMTC processes the registrations itself and then for-
       wards the course completion information to FSI. This is the standard registration
       model FSI uses for training provided at locations other than FSI Washington.
       There is no direct link between RIMC Frankfurt and FSI’s Student Training
       Management System, and efforts to create a link using online registration are as yet
       unresolved. The lack of a direct link undercuts the feasibility of IMTC registra-
       tions being processed solely by FSI in Washington, because RIMC Frankfurt would
       not have access to timely enrollment information essential to planning and con-
       ducting training classes. FSI should, however, explore whether there are other ways
       the registration could be done to lessen the workload on RIMC IMTC staff.


          Recommendation 6: The Foreign Service Institute, in coordination with the
          Bureau of Information Resource Management and the Regional Information
          Management Center Frankfurt, should explore ways to allow student
          registrations for Foreign Service Institute-coded courses conducted at the
          Information Management Training Center in Frankfurt to be processed
          centrally by the Foreign Service Institute in Washington. (Action: FSI, in
          coordination with IRM, RIMC Frankfurt)


           A common concern among RIMC officials and IMTC instructors is the impend-
       ing move to Creekbed. While existing facilities are ideal, there are concerns that
       the space allocated for the training center at Creekbed will be less than adequate.
       Even if the overall area is comparable in size, the configuration might not be well
       suited to a training environment. Furthermore, efforts to consolidate training
       spaces with the classes taught by Regional Support Center will prove difficult, as
       one needs space configured for end-user workstations, while the other trains users
       by building workstations.


          Recommendation 7: The Bureau of Overseas Buildings Operations, in
          coordination with the Bureau of Information Resource Management, the
          Regional Information Management Center Frankfurt, the Foreign Service
          Institute, and Consulate General Frankfurt should ensure that facilities
          provided for use by the Information Management Training Center at the
          Creekbed facility meet adequate standards to allow the training center to con-
          tinue its current level of service. (Action: OBO, in coordination with IRM,
          RIMC Frankfurt, FSI, CG Frankfurt)




12 .                  OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



SYSTEMS ADMINISTRATOR ACCESS FOR DIGITAL TECHNICIANS
    RIMC digital technicians need system administrator privileges to perform their
daily tasks of providing customer support to constituent posts. RIMC Frankfurt
receives OpenNet Plus access as a customer of the information systems center of
Consulate General Frankfurt. However, digital technicians need administrator-
level access rights on the OpenNet Plus and ClassNet networks in order to talk
RIMC customers through troubleshooting steps by phone. Additionally, administra-
tor privileges are necessary to perform diagnostic operations such as pinging servers
and routers.


    Recommendation 8: Consulate General Frankfurt should provide Regional
    Information Management Center Frankfurt digital technicians with
    administrator-level access to the OpenNet Plus and ClassNet networks for
    which they have regional support responsibility. (Action: CG Frankfurt)




TEMPORARY DUTY FOR TELEPHONE TECHNICIANS
     Surveyed posts and RIMC telephone technicians alike indicated that more TDY
trips are necessary to maintain a high level of customer service. While advances in
technology have allowed for sophisticated remote diagnostics capabilities, RIMC
telephone technicians commented that there are many situations where “you just
have to be there.” Despite the development of a telephone lab that allows RIMC
to simulate the operational environment of the customer in order to walk them
through troubleshooting steps over the phone, several technicians believed that it
just does not work, and that RIMC is relying too heavily on providing support via
telephone in lieu of sending a technician on TDY. No matter the remote capabili-
ties, much still depends on having competent eyes on the ground to look at and
work with the system, which is not always the case with IMS staff who may have
limited experience with telephone switches. Technicians described these switches
as difficult systems for a dedicated telephone technician to maintain, let alone an
IMS for whom it is only one of many duties. RIMC Frankfurt should take these
concerns under consideration as they pursue cost-savings through the use of
remote diagnostics.




OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED




14 .     OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




             FORMAL RECOMMENDATIONS

Recommendation 1: The Bureau of Information Resource Management, in
  coordination with the Bureau of European and Eurasian Affairs, the Bureau of
  Near Eastern Affairs, the Bureau of South Asian Affairs, the Bureau of African
  Affairs, and the Bureau of Human Resources, should request additional
  operations officer positions to support the constituent posts of the Regional
  Information Management Center Frankfurt. (Action: IRM, in coordination with
  EUR, NEA, SA, AF, and DGHR)

Recommendation 2: The Bureau of Information Resource Management in
  coordination with the Bureau of European and Eurasian Affairs, the Bureau of
  Near Eastern Affairs, the Bureau of South Asian Affairs, the Bureau of African
  Affairs, and the Bureau of Human Resources, should request additional radio
  technician positions to support the constituent posts of the Regional Informa-
  tion Management Center Frankfurt. (Action: IRM, in coordination with EUR,
  NEA, SA, AF, and DGHR)

Recommendation 3: The Bureau of Information Resource Management should
  ensure that the Regional Information Management Center Frankfurt has input in
  the staffing of the information management specialist rover program. (Action:
  IRM)

Recommendation 4: The Bureau of European and Eurasian Affairs, in coordina-
  tion with the Bureaus of Near Eastern Affairs, South Asian Affairs, and African
  Affairs should ensure that posts receiving temporary duty site visits from
  Regional Information Management Center Frankfurt technicians submit the
  required input on technician performance as requested in the temporary duty
  assignment cable. (Action: EUR, in coordination with NEA, SA, AF, and
  RIMC Frankfurt)

Recommendation 5: The Bureau of Information Resource Management, in
  coordination with the Foreign Service Institute and the Regional Information
  Management Center Frankfurt, should develop a memorandum of agreement
  detailing the types and number of training classes that will be offered by the
  Regional Information Management Center Frankfurt using funding provided by
  the Foreign Service Institute. (Action: IRM, in coordination with FSI, RIMC
  Frankfurt)


OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



       Recommendation 6: The Foreign Service Institute, in coordination with the
         Bureau of Information Resource Management and the Regional Information
         Management Center Frankfurt, should explore ways to allow student registra-
         tions for Foreign Service Institute-coded courses conducted at the Information
         Management Training Center in Frankfurt to be processed centrally by the
         Foreign Service Institute in Washington. (Action: FSI, in coordination with
         IRM, RIMC Frankfurt)

       Recommendation 7: The Bureau of Overseas Buildings Operations, in coordina-
         tion with the Bureau of Information Resource Management, the Regional
         Information Management Center Frankfurt, the Foreign Service Institute, and
         Consulate General Frankfurt should ensure that facilities provided for use by the
         Information Management Training Center at the Creekbed facility meet
         adequate standards to allow the training center to continue its current level of
         service. (Action: OBO, in coordination with IRM, RIMC Frankfurt, FSI,
         CG Frankfurt)

       Recommendation 8: Consulate General Frankfurt should provide Regional Infor-
         mation Management Center Frankfurt digital technicians with administrator-
         level access to the OpenNet Plus and ClassNet networks for which they have
         regional support responsibility. (Action: CG Frankfurt)




16 .                  OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




      APPENDIX A - OBJECTIVES, SCOPE
            AND METHODOLOGY


    The objectives of this review were to determine whether supported posts are
receiving adequate maintenance and support services from RIMC Frankfurt, to
assess whether RIMC Frankfurt staffing levels and training were adequate to
support these posts, and to determine RIMC Frankfurt functions in support of the
Department’s antiterrorism initiatives.

     To meet its review objectives, OIG reviewed documentation from various
sources that provided background information about RIMC Frankfurt and its role
in providing telecommunications support to posts. OIG also solicited all posts
supported by RIMC Frankfurt for feedback on the level of support received. On
site, the inspector met with officials in RIMC Frankfurt to learn about its opera-
tions and to obtain information supporting the review objectives.

    The Office of Inspector General’s Information Technology Office performed
this inspection, including work in Washington, D.C. between April 19-May 20,
2004, and at the Regional Information Management Center in Frankfurt, Germany,
between May 24-June 9, 2004. Contributors to the report are Lynn Allen, Mary S.
Heard, and Matthew J. Ragnetti.




OIG Report No. IT-I-05-02, Regional Information Management Center Frankfurt, March 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
